TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Resource and Computer Programming
                  Limitations Have Hindered the Progress of
                  the Federal, State, and Local Governments
                      Office in Identifying Its Customers



                                      September 12, 2006

                              Reference Number: 2006-10-124




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 12, 2006


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Resource and Computer Programming
                               Limitations Have Hindered the Progress of the Federal, State, and
                               Local Governments Office in Identifying Its Customers
                               (Audit # 200610021)

 This report presents the results of our review of the Federal, State, and Local
 Governments (FSLG) office’s progress in accurately identifying its customers and updating its
 computer system to properly categorize organizations as Federal, State, or local Governments.
 To effectively ensure compliance, the FSLG office determined it needed to identify its customer
 base. In a prior audit,1 we reviewed the FSLG office’s initial attempts to identify its customers.
 We reported that, although the office had begun to identify its customers, it needed to take a
 more structured approach to ensure success. At that time, the office had obtained a download of
 the United States Census Bureau’s 2002 Government Integrated Directory (Census Bureau
 database) containing active Federal, State, and local Governments to use in identifying
 incomplete or inaccurate customer information on the Internal Revenue Service (IRS) computer
 system.2

 Impact on the Taxpayer
 Accurate identification of FSLG office customers on IRS computer systems is a critical part of
 the office’s efforts to provide quality customer service as well as ensure compliance with Federal

 1
   The Federal, State, and Local Governments Office Is Taking Action to Identify Its Customers, but Improvements
 Are Needed (Reference Number 2004-10-104, dated May 2004).
 2
   The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
 businesses. These include employment taxes, income taxes on businesses, and excise taxes.
                         Resource and Computer Programming Limitations Have
                         Hindered the Progress of the Federal, State, and Local
                            Governments Office in Identifying Its Customers


tax laws. However, computer programming limitations hindered efforts to accurately code
FSLG office customers. We determined the manual efforts to overcome the limitations caused
the issuance of unnecessary IRS publications and possibly unnecessary tax delinquency notices,
which may increase taxpayer burden.

Synopsis
Since our prior audit, the FSLG office has continued efforts to further identify its customers by
matching the Census Bureau database to the IRS Returns Inventory and Classification System3
and through additional research. However, management has not made significant progress in
these efforts. Results of the address match of organizations
on the Census Bureau database and the IRS database need            The process used to code
further analysis to ensure the organizations are recorded         some Government entities
correctly on the IRS computer system and coded properly as         has caused unnecessary
                                                                    IRS publications to be
FSLG office customers.                                            issued. It also may initiate
At the time of our review, the FSLG office had not coded          the incorrect issuance of
                                                                  tax delinquency notices,
any additional entities as Federal, State, or local                 which may increase
Governments on the IRS computer system from the                       taxpayer burden.
comparison of the Census Bureau database and the IRS
database. This effort has been delayed because of limited resources and management turnover.
However, other efforts to identify Government entities resulted in 1,183 additional Federal,
State, and local Governments being manually coded as such on the IRS computer system.
Further efforts to accurately code some customers were hindered by computer programming
limitations. The FSLG office was aware of some of the programming limitations and attempted
to manually overcome them. However, we determined the manual process caused the issuance
of unnecessary IRS publications and possibly unnecessary tax delinquency notices. As a result,
taxpayers may contact the IRS to determine the reason for receiving the correspondence and/or
the tax delinquency notices in error, which may increase taxpayer burden.

Recommendations
We recommended the Director, Government Entities, determine the best method to proceed with
the identification of Federal, State, and local Governments and then develop a detailed action
plan that includes tasks to be accomplished, responsible personnel, deadlines for completion of
each task, and methods to monitor progress. This is the third time we have recommended this
action. The Director, Government Entities, should make requests for three additional computer


3
  The Returns Inventory and Classification System provides users access to return and filer information related to the
filing and processing of employee plans, exempt organizations, and government entities forms.
                                                                                                                    2
                    Resource and Computer Programming Limitations Have
                    Hindered the Progress of the Federal, State, and Local
                       Governments Office in Identifying Its Customers


programming changes to allow the FSLG office to accurately code its customers on the IRS
computer system. Finally, the Director, Government Entities, while waiting for computer
programming changes to be made, should request that written IRS procedures be updated to
reflect the revised process for coding Federal, State, and local Governments on the IRS computer
system.

Response
The Commissioner, Tax Exempt and Government Entities Division, agreed with the finding and
recommendations contained in the report. FSLG office management will determine how best to
identify its customers and develop a detailed action plan. Management has requested that written
IRS procedures be revised to ensure codes for identifying Federal, State, and local Governments
are assigned on the IRS computer system. In addition, management will coordinate with the IRS
Modernization and Information Technology Services organization to determine if two other
computer programming change requests are necessary and, if so, will submit them. Finally,
management will submit a computer programming change request to allow Government entities
with unique filing requirements to be accurately coded on the IRS computer system.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                               3
                             Resource and Computer Programming Limitations Have
                             Hindered the Progress of the Federal, State, and Local
                                Governments Office in Identifying Its Customers




                                               Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Limited Progress Has Been Made in Identifying Federal, State, and Local
          Governments Office Customers Due to a Lack of Resources, Management
          Turnover, and Computer Programming Restrictions....................................Page 3
                    Recommendations 1 through 4:...........................................Page 8

                    Recommendation 5: .................................................................... Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measures...............................................................Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 16
                         Resource and Computer Programming Limitations Have
                         Hindered the Progress of the Federal, State, and Local
                            Governments Office in Identifying Its Customers




                                             Background

The Federal, State, and Local Governments office (FSLG), part of the Government Entities
function in the Tax Exempt and Government Entities (TE/GE) Division, is responsible for
providing Federal Government agencies, State Governments, local governments, and
quasi-governmental entities top-quality service by helping them understand and comply with the
tax laws. FSLG office customers are generally not subject to Federal income tax; however, these
customers are commonly required to file information returns and to file and pay employment
taxes. These entities have 23 million employees (20 percent of the United States workforce).
To effectively ensure compliance, the FSLG office determined it needed to identify its customer
base. The FSLG office was created as a new office within the TE/GE Division during the
Internal Revenue Service (IRS) reorganization in Fiscal Year 2000. At that time, the IRS did not
have an accurate database of all FSLG office customers. By May 2006, the FSLG office had
identified and coded over 84,000 Government entities on the IRS computer system.1 However,
this figure did not include potentially thousands of subunits that provided employment tax and
information return reporting data to a larger Government entity for consolidation and filing.
Because these subunits may affect the compliance of another Government entity, the FSLG
office decided to identify these customers as well.
In a prior audit,2 we reviewed the FSLG office’s initial attempts to identify its customers. We
reported that, although the office had begun to identify its customers, it needed to take a more
structured approach to ensure success. At that time, the office had obtained a download of the
United States Census Bureau’s 2002 Government Integrated Directory (Census Bureau database)
to use in identifying incomplete or inaccurate customer information on the IRS computer system.
However, both databases used a different format for entities’ names and addresses, which made a
systemic matching of the entities difficult. We recommended the IRS develop a detailed action
plan that included the individuals assigned, responsible management official(s), completion
dates, expected results, and methods to monitor and report performance. In addition, we
recommended the IRS survey all Government entities appearing on the Census Bureau database
that were not located on the IRS computer system.
FSLG office management expressed concerns regarding the accuracy of the Census Bureau
database and its use in identifying Government entities on the IRS computer system.
Specifically, management stated the Census Bureau database could contain entities that the IRS


1
  The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes.
2
  The Federal, State, and Local Governments Office Is Taking Action to Identify Its Customers, but Improvements
Are Needed (Reference Number 2004-10-104, dated May 2004).
                                                                                                            Page 1
                          Resource and Computer Programming Limitations Have
                          Hindered the Progress of the Federal, State, and Local
                             Governments Office in Identifying Its Customers


has no record of because the entities have never requested an Employer Identification Number.3
Some FSLG office customers are not required to file tax returns and, therefore, may not have
obtained an Employer Identification Number. Additionally, some local government entities are
created for short-term projects and may no longer exist. However, FSLG office management
indicated the Census Bureau database is an important source of information to assist in
identifying its customers. We did not receive or evaluate the Census Bureau database.
In October 2005, the FSLG office published a Research Plan to identify, quantify, and monitor
its customers and their unique compliance issues. One of the Plan’s goals is to identify all
Government entity customers. The planned major milestones of this effort include:
      •    Continue to work with the TE/GE Division Research and Analysis office to ensure
           appropriate methodologies and processes are used in the completion of the Research
           Plan.
      •    Complete the matching process for the Census Bureau database data.
      •    Reestablish a working relationship with the United States Census Bureau.
      •    Reconcile entities to determine proper classification.
      •    Identify and correct errors in the codes used to identify FSLG office customers.
      •    Identify significant subunits through online research and other appropriate means.
      •    Identify and implement procedures to keep the database of customers current.
This review was performed at the FSLG office Compliance and Program Management4 office in
Plantation, Florida, during the period February through June 2006. We also contacted personnel
located in the FSLG office in Austin, Texas, and the TE/GE Division National Headquarters in
Washington, D.C. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




3
    A unique nine-digit number used to identify a taxpayer’s business account.
4
    This was formerly known as the Operations, Planning, and Review office within the FSLG office.
                                                                                                     Page 2
                         Resource and Computer Programming Limitations Have
                         Hindered the Progress of the Federal, State, and Local
                            Governments Office in Identifying Its Customers




                                       Results of Review

Limited Progress Has Been Made in Identifying Federal, State, and
Local Governments Office Customers Due to a Lack of Resources,
Management Turnover, and Computer Programming Restrictions
Since our May 2004 audit, the FSLG office has attempted to further identify its customers.
Specifically, FSLG office personnel coordinated with the TE/GE Division Research and
Analysis office to match the Census Bureau database and the IRS Returns Inventory and
Classification System (RICS)5 based on the address information shown on the databases. The
Census Bureau database included approximately 87,900 active Governments,6 and the RICS
included over 84,000 Government entities.7 By the end of our fieldwork, the FSLG office had
completed the comparison of the two databases but had not yet coded any additional entities as
its customers on the IRS computer system based on the results. However, as a result of
additional RICS queries performed by the office, 1,168 entities have been coded as FSLG office
customers on the IRS computer system. Further, the office coded an additional 15 entities as
FSLG office customers based upon information received from Chief Financial Officers of
various Federal Government agencies.
However, we determined further actions are necessary to ensure the FSLG office identifies the
population of its customers and accurately updates the IRS computer system based on its analysis
of the match between the Census Bureau database and the RICS. The results of the address
match of organizations on the Census Bureau database and the RICS need further analysis to
ensure the organizations are recorded correctly on the IRS computer system and coded properly
as FSLG office customers.
Several factors have contributed to the FSLG office’s lack of significant progress in achieving
the goals of identifying its customers and updating its computer system.
    •    Given the scope and complexity of the project, we believe insufficient resources were
         allocated to it by management from April 2004 through August 2005. Also, the assigned
         personnel were unfamiliar with the various IRS computer systems and Microsoft Office™
         software necessary to successfully complete the project.


5
  The RICS provides users access to return and filer information related to the filing and processing of employee
plans, exempt organizations, and government entities forms.
6
  As of June 30, 2002.
7
  As of May 3, 2006.
                                                                                                             Page 3
                        Resource and Computer Programming Limitations Have
                        Hindered the Progress of the Federal, State, and Local
                           Governments Office in Identifying Its Customers


    •   The office did not prepare a detailed action plan with all necessary information to
        successfully complete the project, including actions planned, individuals assigned,
        responsible management officials, and methods to monitor and report performance. We
        have previously recommended management prepare this action plan to help identify their
        customers.8
    •   There was high turnover of key management officials within the FSLG office. Since
        Fiscal Year 2003, the office has had four acting or permanent Directors, and the FSLG
        office Compliance and Program Management office has had six acting or permanent
        managers. FSLG office management informed us that, as a result, action plans were not
        updated when an action item proved not to be viable, thus impeding the progress in
        identifying their customers. We believe use of a detailed action plan during this period
        could have enabled management to achieve further progress in identifying their
        customers.
    •   Computer programming limitations are preventing the FSLG office from accurately
        coding FSLG office customers without an Employer’s QUARTERLY Federal Tax
        Return (Form 941) filing requirement on the IRS computer system.
Identification of its customers is a critical part of the FSLG office’s efforts to provide quality
customer service as well as ensure compliance with Federal tax laws. To address noncompliance
issues, while maximizing its limited resources, the office needs to identify its at-risk customers
most in need of educational assistance, effectively communicate tax law changes, and, if
necessary, undertake compliance checks and examinations. In addition, more accurate
identification of its customers on IRS computer systems will help the IRS identify filing
noncompliance and effectively apply tax payments to the proper taxpayer accounts.

Results of the address match of organizations on the Census Bureau and IRS
databases need further analysis
The FSLG office has had limited success in matching the entities on the Census Bureau database
to the entities on the RICS. The two databases cannot be systemically matched because the
Census Bureau database does not contain a unique identifier, such as an Employer Identification
Number, to use for matching purposes. Further, both databases use a different format for
entities’ names and addresses. Nevertheless, the TE/GE Division Research and Analysis office
matched addresses on the Census Bureau database to addresses on the RICS, which included
data from the TE/GE Division as well as the Small Business/Self-Employed Division and the
Large and Mid-Size Business Division, to help identify FSLG office customers miscoded on the
IRS computer system as customers of other IRS operating divisions. This address match was

8
 The Federal, State, and Local Governments Office Is Taking Action to Identify Its Customers, but Improvements
Are Needed (Reference Number 2004-10-104, dated May 2004) and To Provide Quality Service, the Government
Entities Organization First Needs to Identify Its Customers (Reference Number 2002-10-102, dated July 2002).
                                                                                                         Page 4
                         Resource and Computer Programming Limitations Have
                         Hindered the Progress of the Federal, State, and Local
                            Governments Office in Identifying Its Customers


completed in August 2005, and the results were provided to the FSLG office in two Microsoft
Access™ databases. The FSLG office needs to perform additional research on the organizations
contained on these databases to ascertain if they are properly coded as its customers.
After receiving the results of the address match, the FSLG office continued to pursue other
methods to more effectively identify its customers on the IRS computer system by entity name
instead of entity address. The office subsequently determined the IRS had computer
programmers who could match the Census Bureau’s database to an IRS database used to locate
entity’s names and their corresponding Taxpayer Identification Numbers9 using the name field.
This match resulted in the identification of over 70,000 entities on the Census Bureau database
that had the same names as entities on the IRS computer system. The FSLG office has also
requested that an additional name match be performed of the Census Bureau database and
another IRS database to further identify its customers. The results of this additional match will
not be received by the FSLG office until August 2006. The FSLG office believes these
additional analyses based on the organizations’ names are more accurate than the previous
matches by address and plans to continue with the customer identification efforts using the
results of these matches. After we completed our fieldwork, management advised us they will
send letters to the remaining organizations listed on the Census Bureau database that could not
be located on the IRS computer system by the name match, to determine if they are FSLG office
customers. Specifically, management stated they will begin mailing approximately 8,600 letters
to such organizations in August 2006.
The FSLG office also has identified some customers using other methods. Specifically, office
personnel performed several queries of the RICS to further identify potential customers.
Personnel researched the RICS by certain key terms (e.g., “fire department,” “city of”) and
identified 1,168 organizations that were not properly coded as FSLG office customers. These
organizations were manually coded as FSLG office entities on the IRS computer system.10
Further, the office issued letters to 27 Chief Financial Officers of various Federal Government
agencies and requested their Employer Identification Numbers and the purpose of each Number.
The office researched the responses of 10 agencies, many providing multiple Employer
Identification Numbers; determined 16 entities were not properly coded as its customers; and
took actions to properly code 15 of them.11




9
  A nine-digit number assigned to taxpayers for identification purposes. Depending upon the nature of the taxpayer,
the Taxpayer Identification Number is an Employer Identification Number, a Social Security Number, or an
Individual Taxpayer Identification Number.
10
   We reviewed a random sample of 75 cases and researched IRS computer systems and the Internet to determine
whether the updated codes used to identify FSLG office customers were accurate. All 75 entities were properly
coded as FSLG office customers.
11
   We reviewed all 16 cases and determined 15 were accurately updated.
                                                                                                           Page 5
                        Resource and Computer Programming Limitations Have
                        Hindered the Progress of the Federal, State, and Local
                           Governments Office in Identifying Its Customers


Programming limitations do not allow all FSLG office customers to be properly
coded on the IRS computer system
The FSLG office is identifying its customers with a code on the IRS computer system that
categorizes the entities as Federal, State, or local Government agencies. Specifically,
information contained on an organization’s Application for Employer Identification Number
(Form SS-4) is used to categorize the type of organization when an account is established on the
IRS computer system. However, FSLG office entities that request an Employer Identification
Number, but do not indicate on their Forms SS-4 they have employees, cannot be coded as FSLG
office customers due to programming restrictions. Only entities with a Form 941 filing
requirement can be coded as FSLG office customers. Further, IRS procedures for processing
Form SS-4 do not allow the code identifying FSLG office customers to be added to an account
without a filing requirement code12 being input. This programming prevents new organizations
from being coded as FSLG office customers and precludes existing organizations without a
Form 941 filing requirement from being updated with a code identifying them as FSLG office
customers. To work around these programming limitations, office personnel took steps to
manually code 1,183 entities (1,168 + 15) as FSLG office customers. However, these steps
resulted in some unintended consequences that may increase taxpayer burden.
Through various research and matching efforts, the office identified FSLG office customers that
were not coded as such on the IRS computer system. However, some of these entities were not
required to file a Form 941. For these entities to be coded as FSLG office customers, personnel
needed to input a Form 941 filing requirement code on each account and then delete it.
However, deleting the filing requirement code caused unintended systemic actions to occur.
When an existing Form 941 filing requirement code is deleted, the computer system
automatically inputs a different filing requirement code that signifies the organization is no
longer liable for filing Forms 941 and causes a Federal Employment Tax Forms
(Publication 393) to be automatically issued to the organization. This Publication contains
copies of and instructions for information returns. In addition, the computer programming will
subsequently delete the code used to identify any Federal Government agencies as FSLG office
customers after the filing requirement code is deleted.13
To resolve these programming limitations, FSLG office management has submitted a Request
for Information Services14 to allow organizations that are not required to file employment tax
returns to be coded as FSLG office entities on the IRS computer system. This change is
scheduled for implementation in July 2007. However, this Request may not address the coding

12
   A filing requirement code identifies what type of return an entity is required to file.
13
   Based on our review of the computer programming manuals and contact with IRS programming personnel, we
were unable to determine whether the code used to identify State and local Government organizations as FSLG
office customers is systemically deleted after the filing requirement code has been deleted.
14
   The Request for Information Services process entails a common framework to document, control, monitor, and
track requests for changes to IRS computer systems and for support.
                                                                                                        Page 6
                    Resource and Computer Programming Limitations Have
                    Hindered the Progress of the Federal, State, and Local
                       Governments Office in Identifying Its Customers


Recommendations
Recommendation 1: The Director, Government Entities, should determine the best method
to identify FSLG office customers, including, but not limited to, the Census Bureau database.
This approach should be included in a detailed action plan that outlines what is to be
accomplished, who will accomplish each task, deadlines for each task, management officials
providing oversight, expected results, and methods to monitor performance. Government
Entities function management should also prepare updates to the plan if scheduled actions are no
longer viable.
       Management’s Response: TE/GE Division management agreed with this
       recommendation. They will determine how best to identify their customers and develop a
       detailed action plan.
Recommendation 2: While waiting for implementation of the Request for Information
Services that will allow a code identifying FSLG office customers to be input without a filing
requirement in July 2007, the Director, Government Entities, should request that all relevant
procedures be revised to ensure codes used to identify FSLG office customers are assigned even
if there are no filing requirements.
       Management’s Response: TE/GE Division management agreed with this
       recommendation. They have identified and contacted the respective systems owners for
       Individual and Business Master File accounts and requested that all relevant procedures
       to identify FSLG office customers be revised to ensure codes used to identify those
       customers are assigned even if there are no filing requirements.
Recommendation 3: The Director, Government Entities, should submit a Request for
Information Services that revises computer programming to ensure the code used to identify
Federal Government agencies is not deleted if the Form 941 filing requirement is removed from
an agency’s account.
       Management’s Response: TE/GE Division management agreed with this
       recommendation. They will discuss this process with the Modernization and Information
       Technology Services organization to determine if a Request for Information Services is
       required or if the work can be completed without it. Management will submit a Request
       for Information Services, if necessary.
Recommendation 4: The Director, Government Entities, should research IRS computer
programming and, if necessary, submit a Request for Information Services to eliminate any
unintended consequences of deleting filing requirements (such as the issuance of
Publication 393) for Federal, State, and local Governments.
       Management’s Response: TE/GE Division management agreed with this
       recommendation. They will contact personnel who specialize in Master File changes and
       coordinate with the Modernization and Information Technology Services organization,
                                                                                          Page 8
                    Resource and Computer Programming Limitations Have
                    Hindered the Progress of the Federal, State, and Local
                       Governments Office in Identifying Its Customers


       determine if a Request for Information Services is necessary, and submit a Request for
       Information Services if required.
Recommendation 5: The Director, Government Entities, should submit a Request for
Information Services to allow Government entities with unique filing requirement codes, such as
Puerto Rican, Virgin Islands, Guam, and American Samoa filers, to be coded as FSLG office
customers.
       Management’s Response: TE/GE Division management agreed with this
       recommendation. They will submit the Request for Information Services.




                                                                                         Page 9
                          Resource and Computer Programming Limitations Have
                          Hindered the Progress of the Federal, State, and Local
                             Governments Office in Identifying Its Customers


                                                                                                         Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the Federal, State, and Local Governments
(FSLG) office’s progress in accurately identifying its customers and updating its computer
system to properly categorize organizations as Federal, State, or local Governments.
Specifically, we assessed the status of the customer identification efforts and the process used to
code customer accounts. We attempted to validate the two databases received from the FSLG
office by querying various fields to determine if the data in the fields were appropriate. This was
not the case for one database, so we did not complete additional validations. For the other
database, we also verified there were no duplicate records and that each entity’s account had
been updated on the Internal Revenue Service computer system1 as indicated by the FSLG office.
We concluded that one database may be unreliable and the other was reliable. We did not use
the potentially unreliable database during our review, so there are no impairments to report. Due
to resource limitations, we did not obtain or validate the United States Census Bureau’s 2002
Government Integrated Directory (Census Bureau database). To accomplish the audit objective,
we:
I.       Determined all currently planned efforts or those initiated since the May 2004 Treasury
         Inspector General for Tax Administration report2 to identify Federal, State, and local
         Government customers.
         A. Interviewed FSLG office Compliance and Program Management3 office personnel to
            obtain information on all currently planned identification efforts or those initiated
            since May 2004.
         B. Obtained documentation (e.g., planning documents, action plans, status reports)
            related to efforts to identify FSLG office customers.
II.      Determined whether Tax Exempt and Government Entities Division management took
         adequate corrective action in response to two recommendations made to improve the
         process used to identify customers (related to the FSLG office) contained in our
         May 2004 report.



1
  The Business Master File is the Internal Revenue Service database that consists of Federal tax-related transactions
and accounts for businesses. These include employment taxes, income taxes on businesses, and excise taxes.
2
  We identified all identification efforts that were initiated after the issuance of the report entitled The Federal, State,
and Local Governments Office Is Taking Action to Identify Its Customers, but Improvements Are Needed (Reference
Number 2004-10-104, dated May 2004).
3
  This was formerly known as the Operations, Planning, and Review office within the FSLG office.
                                                                                                                  Page 10
                           Resource and Computer Programming Limitations Have
                           Hindered the Progress of the Federal, State, and Local
                              Governments Office in Identifying Its Customers


           A. Reviewed the FSLG office action plan obtained in Step I. to determine whether it
              included management officials responsible for providing oversight, specific actions
              needed to identify customers, individuals assigned to the project, completion dates,
              expected results, and methods to monitor performance.
           B. Determined whether a survey was mailed to each Government entity included on the
              Census Bureau database that was not on the Internal Revenue Service computer
              system, to confirm the name and address of the entity and request its Employer
              Identification Number4 (if applicable).
III.       Assessed the FSLG office’s progress in identifying its customers and updating its
           computer system to properly categorize organizations as Federal, State, or local
           Governments.
           A. Determined whether the identification efforts identified in Step I.A. were on schedule.
           B. Determined whether updated information related to FSLG office customers had been
              identified since May 2004.
           C. Determined whether accurate codes identifying FSLG office customers had been
              input to the Internal Revenue Service computer system if new information had been
              identified for Federal, State, and local Governments. We selected a random sample
              of 75 cases from a universe of 1,168 entities that had had their codes updated to
              verify the changes made to the accounts. We used a random sampling technique to
              ensure each entity had an equal chance of being selected for review. We also
              reviewed the total universe of 16 cases from a separate effort to update entities’
              accounts.




4
    A unique nine-digit number used to identify a taxpayer’s business account.
                                                                                               Page 11
                   Resource and Computer Programming Limitations Have
                   Hindered the Progress of the Federal, State, and Local
                      Governments Office in Identifying Its Customers


                                                                             Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Jeffrey M. Jones, Acting Director
Thomas Seidell, Acting Audit Manager
Cheryl Medina, Lead Auditor
Barry Huff, Senior Auditor
Donald Martineau, Auditor




                                                                                    Page 12
                    Resource and Computer Programming Limitations Have
                    Hindered the Progress of the Federal, State, and Local
                       Governments Office in Identifying Its Customers


                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Research and Analysis, Tax Exempt and Government Entities Division SE:T:RA
Director, Federal, State, and Local Governments, Tax Exempt and Government Entities Division
SE:T:GE:FSL
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                    Page 13
                         Resource and Computer Programming Limitations Have
                         Hindered the Progress of the Federal, State, and Local
                            Governments Office in Identifying Its Customers


                                                                                                 Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 27 taxpayer accounts affected (see page 3).

Methodology Used to Measure the Reported Benefit:
We queried the database of 1,168 accounts that had been updated with a code identifying them as
Federal, State, and Local Governments (FSLG) office customers to determine the current filing
requirement codes1 on those accounts. We also reviewed 15 other accounts that had been
updated based on information received from Chief Financial Officers of various Federal
Government agencies. Based upon our reviews, we determined 27 tax accounts had the filing
requirement code added and subsequently deleted from the accounts, causing Federal
Employment Tax Forms (Publication 393) to be issued to the entities.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 7 taxpayer accounts affected (see page 3).

Methodology Used to Measure the Reported Benefit:
We reviewed 15 tax accounts that had been updated with a code identifying them as FSLG office
customers based on information received from Chief Financial Officers of various Federal
Government agencies. We determined that a filing requirement code had been added to the
accounts of seven entities that had previously reported to the Internal Revenue Service they do
not file employment tax returns; the filing requirement codes had not been deleted at the end of
our fieldwork. We researched the Internal Revenue Service computer system2 and determined

1
 A filing requirement code identifies what type of return an entity is required to file.
2
 The Business Master File is the Internal Revenue Service database that consists of Federal tax-related transactions
and accounts for businesses. These include employment taxes, income taxes on businesses, and excise taxes.




                                                                                                           Page 14
                    Resource and Computer Programming Limitations Have
                    Hindered the Progress of the Federal, State, and Local
                       Governments Office in Identifying Its Customers


6 of the 7 entities had not used the Employer Identification Numbers to file an employment tax
return in the last 2 years. These seven Federal Government entities may receive delinquency
notices for not filing employment tax returns.




                                                                                        Page 15
      Resource and Computer Programming Limitations Have
      Hindered the Progress of the Federal, State, and Local
         Governments Office in Identifying Its Customers


                                                    Appendix V

Management’s Response to the Draft Report




                                                           Page 16
Resource and Computer Programming Limitations Have
Hindered the Progress of the Federal, State, and Local
   Governments Office in Identifying Its Customers




                                                     Page 17
Resource and Computer Programming Limitations Have
Hindered the Progress of the Federal, State, and Local
   Governments Office in Identifying Its Customers




                                                     Page 18
Resource and Computer Programming Limitations Have
Hindered the Progress of the Federal, State, and Local
   Governments Office in Identifying Its Customers




                                                     Page 19
